Nos. 19-1257 and 19-1258

 

 

IN THE
Supreme Court of the Hnited States

MARK BRNOVICH, ATTORNEY GENERAL OF ARIZONA, ET
AL., PETITIONERS,
Vv.

DEMOCRATIC NATIONAL COMMITTEE, ET AL.
ARIZONA REPUBLICAN PARTY, ET AL., PETITIONERS,
Vv.

DEMOCRATIC NATIONAL COMMITTEE, ET AL.

On Writs of Certiorari to the United States Court
of Appeals for the Ninth Circuit

BRIEF FOR NATIONAL ASSOCIATION FOR THE
ADVANCEMENT OF COLORED PEOPLE AND
LAWYERS’ COMMITTEE FOR CIVIL RIGHTS
UNDER LAW AS AMICI CURIAE IN SUPPORT OF
RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,855 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 20, 2021.

Ad

Colin Casey Wogan
Wilson-Epes Printing Co., Inc.

  
